U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General



                 PUBLIC
                RELEASE



                    INTERNATIONAL
             TRADE ADMINISTRATION

             US&FCS Portugal Is Effectively
               Providing Services, But Should
            Strengthen Program Management


          Audit Report No. BTD-10594-9-0001 / March 1999




         Office of Audits, Business and Trade Audits Division
U.S. Department of Commerce                                                                            Audit Report BTD-10594
Office of Inspector General                                                                                        March 1999

                                               TABLE OF CONTENTS

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

PURPOSE AND SCOPE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
    Portuguese Market . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
    US&FCS Portugal . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

FINDINGS AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

          I.        PROGRAM PERFORMANCE AND GENERAL MANAGEMENT . . . . . . . . . 4

                    A.        US&FCS Portugal Maintains Positive Relationships
                              with Organizations and Assists Businesses . . . . . . . . . . . . . . . . . . . . . . . 4
                    B.        Management of Products and Services Can Be Improved . . . . . . . . . . . . 5
                    C.        Personnel Management Needs Attention . . . . . . . . . . . . . . . . . . . . . . . . . 6

                    RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
                    US&FCS Response to Draft Report and OIG Analysis . . . . . . . . . . . . . . . . . . . . 7

          II.       INTERNAL CONTROL ENVIRONMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

                    A.        Asset Management Needs to Be Strengthened . . . . . . . . . . . . . . . . . . . .                 10
                    B.        Financial Management Controls Need Improvement . . . . . . . . . . . . . . .                      11
                    C.        Post Needs to Document Trust Fund Balances . . . . . . . . . . . . . . . . . . .                  12
                    D.        US&FCS Portugal Has an Unfunded Personnel Liability . . . . . . . . . . .                         13
                    E.        US&FCS Portugal Is Actively Engaged in ICASS . . . . . . . . . . . . . . . . .                    13

                    RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
                    US&FCS Response to Draft Report and OIG Analysis . . . . . . . . . . . . . . . . . . . 14

APPENDIX I:                   US&FCS’s Complete Response to the Draft Report

APPENDIX II:                  Organization Chart

APPENDIX III:                 Acronyms
U.S. Department of Commerce                                                              Audit Report BTD-10594
Office of Inspector General                                                                          March 1999

                                        EXECUTIVE SUMMARY

Portugal is a member country of the European Union (EU), the United State’s largest trading
partner. As of 1997, direct exports to Portugal amounted to approximately $1 billion per year.
With the rapid growth of the Portuguese economy, standard measures of that nation’s economic
performance are now approaching the average of its EU partners. However, as only the 34th
largest market for direct U.S. exports of goods and services, Portugal is not ranked highly by U.S.
business as a new market to explore.

In general, EU economic assistance has helped to sustain Portugal’s economic growth above the
EU average. From 1997 to 2000, the Portugese government will invest nearly $20 billion in
regional development projects, with one-third financed by EU structural funds. These funds are
deployed not only to industry, but in virtually every sector of the economy, with a significant
portion being applied to the improvement of Portugal’s transportation infrastructure.

The Department of Commerce’s operations in Portugal are carried out by the U.S. and Foreign
Commercial Service (US&FCS), which manages two offices in Lisbon and Porto. Its FY 1997
total operating budget amounted to $752,000. According to US&FCS’s Overseas Resource
Allocation Matrix, at the time of our audit US&FCS Portugal was 43rd out of 96 countries in
terms of operations and administrative funding.1

The Office of Inspector General conducted a performance audit of US&FCS operations in
Portugal. We have divided our findings into two broad areas: program performance and general
management, and internal control environment.

Program Performance and General Management

Because U.S. exporters consider the Portuguese market to be peripheral to other European
markets due to its small size, US&FCS Portugal has focused its attention on servicing Portuguese
importers and distributors interested in importing U.S. products. The senior commercial officer
stated that the primary goal of US&FCS Portugal for FY 1997 and FY 1998 was to increase
success stories2 resulting from US&FCS assistance to Portuguese importers. The post also
planned to coordinate regional promotion of Portugal through Showcase Europe, manage the



        1
            The Overseas Resource Allocation Matrix is a US&FCS management tool to guide overseas resource
allocation decision-making.
        2
           Success stories are a performance measure of export actions in which the Department played a role.
Success stories result from trade event activities, products, services, or counseling and describe the type of
US&FCS assistance provided to the company.

                                                         i
U.S. Department of Commerce                                                               Audit Report BTD-10594
Office of Inspector General                                                                           March 1999

Showcase Europe home page, and create a companion page for European agents and
distributors.3

US&FCS Portugal’s trade promotion program reflects US&FCS’s regional priorities. However,
while the Porto office is generating a large number of success stories, the quantity and sector
coverage represented by these success stories, as well as the absence of a strong working
relationship with the Porto branch of the American Chamber of Commerce, indicate that Porto
activity may be too narrowly focused and inadequately integrated with the overall objectives of
US&FCS Portugal. The Agent/Distributor Service (ADS)4 provided by US&FCS Portugal also
requires significant improvement in management and timeliness.

Internal Control Environment

US&FCS Portugal plays an active role in the International Cooperative Administrative Support
Services (ICASS) system (indeed, the senior commercial officer is the ICASS counsel
chairperson) and maintains an adequate internal control environment. The internal control
weaknesses, which we view as not material, include a lack of (1) asset management control over
vehicles and inventory and (2) controls over cash collections. While the amount of cash collected
is relatively small, the procedures and controls should be strengthened to safeguard against the
potential misuse of receipts and ensure accurate reporting. Additionally, we were unable to
determine whether the post met US&FCS requirements for trust fund activity, although the
amount of activity was low.

Finally, Federal laws and regulations (Federal Manager’s Financial Integrity Act, the Chief
Financial Officers Act, and GAO regulations) require that US&FCS Washington account for its
foreign service national severance cost liability. The FSN personnel benefits, including severance
pay, are in accordance with prevailing practices in Portugal. The embassy personnel office
provided us with a severance cost liability calculation of over $517,000. We reviewed the
severance pay plan; the amount of severance liability could be significantly less depending on the
interpretation of this plan. US&FCS should obtain legal review of the plan and conduct a detailed
analysis to determine the precise amount of the liability.

Our most important recommendations call for the Assistant Secretary and Director General of
US&FCS to:



        3
          The Showcase Europe strategy coordinates US&FCS efforts to approach Europe on a regional basis and
to move U.S. firms exporting to one or more European markets into additional markets.
        4
          The Agent/Distributor Service is a customized overseas search for qualified agents, distributors, and
representatives for U.S. firms.

                                                         ii
U.S. Department of Commerce                                                Audit Report BTD-10594
Office of Inspector General                                                            March 1999

1.     Reassess the general mission and activity of the Porto office in order to determine how it
       could more effectively support the objectives of US&FCS. To this end, determine (a) why
       an active relationship with the Porto branch of the Chamber of Commerce has not been
       established; and (b) whether US&FCS Porto is adequately focused and integrated into the
       overall objectives of US&FCS Portugal.

2.     Ensure that US&FCS management works with the senior commercial officer to adopt a
       more formal system for monitoring ADS timeliness. Staff should also be held accountable
       for timeliness problems, as well as recognized and rewarded for meeting the established
       ADS deadline.

3.     In concert with the Department of State’s General Services Office, perform an inventory
       to ensure that all US&FCS assets are appropriately identified with bar code tags. For any
       items missing from the inventory records, obtain an explanation from the property
       custodian as to the location or disposition of the equipment or other asset.

4.     Direct the US&FCS Offices of International Operations and Planning to obtain legal
       review of the severance pay agreement and conduct a detailed analysis to assess the
       amount of unfunded severance liability for the post.

                                             *****

In its response to our draft report, US&FCS generally agreed with our recommendations and
described a number of measures it has taken to implement the recommendations. These include:
(1) improving the relationship with the Porto branch of the American Chamber of Commerce and
increasing the number of visits to Lisbon by the Porto FSN; (2) processing all ADS requests
within timeframes established under US&FCS guidelines; and (3) maintaining an up-to-date
inventory of office and residential property.

We have made minor changes in response to the comments and reiterated our recommendations
without change in the final report. Summaries of US&FCS’s response for each set of findings and
recommendations begin on pages 7 and 14, and we have attached US&FCS’s complete response
to the report.




                                               iii
U.S. Department of Commerce                                                   Audit Report BTD-10594
Office of Inspector General                                                               March 1999

                                       INTRODUCTION

Under the authority of the Inspector General Act of 1978, as amended, and the requirements of
the Omnibus Trade and Competitiveness Act of 1988, the Office of Inspector General conducted
a performance audit of Department of Commerce operations in Portugal. Our fieldwork was
conducted during December 8-12, 1997.

Performance audits are objective, systematic examinations of an organization, program, activity,
or function in order to provide information to improve accountability and facilitate decision-
making by parties with responsibility to oversee or initiate corrective action. By identifying
systemic strengths and weaknesses, the OIG will help the Department’s managers implement
more efficient and effective operations to better serve their customers.

                                    PURPOSE AND SCOPE

The OIG is committed to the pursuit of operational effectiveness throughout the Department,
challenging management to achieve excellence with respect to programmatic, administrative, and
financial operations. The purpose of this performance audit was to evaluate the effectiveness of
the Department’s operations in Portugal, which are carried out primarily through the U.S. and
Foreign Commercial Service’s offices in Lisbon and Porto.

In accordance with the General Accounting Office’s (GAO) Assessing Internal Controls in
Performance Audits, we reviewed US&FCS Portugal’s internal control environment relating to
administrative and financial management. We conducted tests to achieve our objective of
determining the effectiveness of administrative and financial management controls.

We tested US&FCS Portugal’s operations for compliance with the GAO Policy and Procedures
Manual for Guidance of Federal Agencies and the Federal Managers’ Financial Integrity Act of
1982. The report findings and recommendations draw upon significant tests of records; physical
evidence; documentary evidence, including accounting records and memorandums; and analytical
evidence based on data obtained. We also held interviews with US&FCS personnel, partner
organizations, and clients. We did not rely on computer-generated data to support our findings.
Our audit covered a review of programmatic, management, administrative, and financial issues.

We reviewed the policies, procedures, and practices being implemented by US&FCS Portugal to
determine whether it is successfully and efficiently meeting its mission: to assist U.S. companies,
particularly small and medium-sized enterprises, with export assistance. We also determined
whether US&FCS Portugal’s goals and objectives are being achieved, and whether these goals
and objectives are in line with Department objectives. The audit evaluated the effectiveness and
efficiency of operations, and assessed the operation’s compliance with applicable laws,
regulations, and procedures.

                                                 1
U.S. Department of Commerce                                                          Audit Report BTD-10594
Office of Inspector General                                                                      March 1999

In conducting our audit, we placed primary emphasis on the following areas:

l       program performance and general management
l       internal control environment

The audit also considered ITA headquarters and domestic office activities that are coordinated
with US&FCS Portugal. The audit was conducted in accordance with Generally Accepted
Government Auditing Standards and was performed under the authority of the Inspector General
Act of 1978, as amended, and Department of Commerce Organization Order 10-13, dated May
22, 1980, as amended.5

In the absence of an ambassador to Portugal, we discussed our observations with the chargé
d’affaires, and held an exit conference with the US&FCS Portugal Senior Commercial Officer
(SCO) and the Regional Director for Europe on December 12, 1997. During this conference, the
SCO generally agreed with our observations.

                                            BACKGROUND

PORTUGUESE MARKET

Portugal is a steadily expanding part of the European Union (EU) single market. With access to
the EU market, a low-cost work force, and government incentives, Portugal is considered a good
place to establish distribution and production facilities. While the small size of the Portuguese
market discourages U.S. firms from placing emphasis on it, many U.S. firms already export to
Portugal indirectly through the distribution channels of other EU countries. The tax benefits
gained from importing from other EU countries tend to encourage these indirect U.S. exports to
Portugal. Given the priorities of the Portuguese government and the technological and industrial
edge of U.S. firms, the following areas have been identified by ITA as holding the most promise
for U.S. exporters to Portugal: telecommunications; pollution control and waste management;
energy conservation; medical and health management; computers, peripherals, and software;
franchising; laboratory and scientific instruments; apparel; airport and ground support equipment;
and defense articles and services.

US&FCS PORTUGAL

US&FCS Portugal has its primary office in Lisbon, as well as a satellite office in the industrial
region of Porto. Together, both offices target local Portugese importers in order to promote


        5
           The OIG discloses that two audit team members formerly worked for ITA; however, they had no
material involvement with US&FCS Portugal operations.

                                                      2
U.S. Department of Commerce                                                           Audit Report BTD-10594
Office of Inspector General                                                                       March 1999

trade relationships between Portuguese importers and U.S. exporters. This outreach primarily
consists of counseling and recruiting local companies for regional trade events.

The Showcase Europe (SCE) regional initiative, begun in 1995, is managed by US&FCS posts in
Europe and is an integral part of the agency’s operations in Portugal. This strategy coordinates
the efforts of US&FCS posts and domestic offices to present the European market on a regional
basis and thus encourage U.S. firms to broaden their export horizons with respect to the
European market. Showcase Europe emphasizes eight key sectors that represent major
opportunities for U.S. exporters within Europe.6 Each SCE sector is managed by an individual
commercial office in Europe, but the sectors are not specific to a single country. US&FCS
Portugal is responsible for the development of the SCE internet homepage.




        6
           The Showcase Europe Strategy (SCE) focuses on eight key industry sectors: Aerospace, Automotive
Parts, Energy and Power Generation, Environmental Technologies, Franchising, Medical/Pharmaceutical,
Telecommunications/Communications and Information Technologies, and Travel and Tourism

                                                      3
U.S. Department of Commerce                                                              Audit Report BTD-10594
Office of Inspector General                                                                          March 1999

                              FINDINGS AND RECOMMENDATIONS

US&FCS Portugal’s management exhibited a number of strengths, such as successful
relationships with government and business organizations and a proactive SCO who involves his
staff in the development and implementation of office plans. However, despite strong leadership
of US&FCS Portugal activities, some program operations and internal controls over US&FCS
assets need strengthening.

We have categorized our audit findings and recommendations into two areas:

l       program performance and general management
l       internal control environment

I.      PROGRAM PERFORMANCE AND GENERAL MANAGEMENT

Because U.S. exporters consider the Portuguese market to be peripheral to other European
markets due to its small size, US&FCS Portugal has focused its attention on servicing Portuguese
importers and distributors interested in importing U.S. products. The SCO stated that the primary
goal of US&FCS Portugal for FY 1997 and FY 1998 was to increase success stories7 resulting
from US&FCS assistance to Portuguese importers. The post would also coordinate regional
promotion of Portugal through Showcase Europe, manage the SCE home page, and create a
companion page for European agents and distributors. While generating a high number of success
stories, it is unclear whether the Porto satellite office is sufficiently integrated into the activity of
the primary office in Lisbon. The post should also improve its management of the
Agent/Distributor Service (ADS).

A.      US&FCS Portugal Maintains Positive Relationships
        with Organizations and Assists Businesses

The relationships established by the post with other U.S. government agencies and business
organizations are positive and productive, but improvements are needed in the Porto region.
Officials at the State Department, the Department of Defense, and the U.S. Information Service
were complimentary in describing their interaction with post officials. The current Director of the
American Chamber of Commerce (AmCham)8 in Lisbon now views the relationship between
AmCham and US&FCS Portugal to be excellent, a positive change in recent years. The SCO has


        7
           Success stories are a performance measure of export actions in which the Department played a role.
Success stories result from trade event activities, products, services, or counseling and describe the type of
assistance provided to the company by the US&FCS.

        8
           American Chambers of Commerce abroad are associations of business executives that represent U.S.
businesses in host countries before governments, the business community, and the general public.

                                                        4
U.S. Department of Commerce                                                  Audit Report BTD-10594
Office of Inspector General                                                              March 1999

assisted the AmCham with a number of its activities, including the development of an action plan
outlining proposed activities and objectives. However, the director of the Porto committee of
AmCham stated that there is no substantive interaction with the US&FCS Porto office.

US&FCS Portugal also shares communication and logistics responsibilities with respect to
specific trade events with the local franchising institute. Franchising is one of the eight key
sectors selected for focus by posts in Showcase Europe, and the Lisbon office provides critical
support to US&FCS Spain, the sector coordinator. Consequently, US&FCS Portugal’s
relationship with the institute is timely and could be productive.

US&FCS Portugal also supports the Showcase Europe strategy in several ways. It manages the
SCE internet web site that provides comprehensive resources on, and advertising for, SCE events
and related information. As the coordinating office, Portugal works with the other SCE managers
and US&FCS domestic offices to develop new information and update existing information on
trade-related issues and events.

B.     Management of Products and Services Can Be Improved

We reviewed the market research and Agent/Distributor Services provided by US&FCS Portugal,
as well as the quality and quantity of reported success stories. While the quality of the market
research is good, and the volume and value of success stories in FY 1996 and FY 1997 are
commendable, the numerical distribution of success stories between Lisbon and Porto is uneven.
Also, delivery of the ADS is often untimely.

US&FCS Porto Market Focus, While Successful, Needs to be Reassessed

US&FCS maintains a two-person office in Porto, a large commercial city, to cover the northern
half of Portugal, which has been characterized as the industrial half. As the U.S. business
presence is relatively small, US&FCS Porto primarily focuses its research and services on the
Portuguese distributors and importers in the area. The Porto office has developed an extensive
database of prospective importers, updated with personal contact and follow-up. The office also
provides ADS, prepares market research, and maintains a small library of reference materials.

In terms of the volume and value of success stories, the Porto office is extremely productive and
thus appears to be adequately providing information and support to Portuguese importers. In FY
1996 and FY 1997, the principal foreign service national (FSN) in Porto reported twice as many
success stories as reported by Lisbon, as well as a significant percentage of the total value (89
percent in FY 1996 and 30 percent in FY 1997).

US&FCS has identified “Best Prospect” sectors (country-specific sectors with exceptional
potential for U.S. exporters within three years) and eight key SCE sectors for focus by posts. In
FY 1996 and FY 1997, 64 and 50 percent of the Portugal post’s reported success stories,

                                                5
U.S. Department of Commerce                                                    Audit Report BTD-10594
Office of Inspector General                                                                March 1999

respectively, were in those categories. When we examined them further, the success stories
reported for US&FCS Lisbon reflected a significant focus on achieving results in Best Prospect
and Showcase Europe. The same analysis showed that Porto, in contrast, did not generate results
that were focused on Best Prospect or SCE sectors; in FY 1997, only 25 percent of the success
stories from the Porto office were in the SCE sectors (primarily the automotive and medical
sectors). In addition, in FY 1996, the SCE sector-related success stories reported by the Porto
office accounted for just 37 percent of the total Porto success stories. Again, these success
stories were primarily in the automotive and medical sectors.

When considering the comments by the director of the Porto Committee of the AmCham that
there is not substantive interaction with US&FCS Porto, together with the lack of success in
reaching US&FCS target sectors, we conclude that while US&FCS Porto is successfully
providing information to Portuguese importers/distributors and generating success stories, the
activity and objectives of the office may be too narrow and inadequately integrated into the post’s
overall objectives.

US&FCS Portugal ADS Reports Not Timely

Based on a review of US&FCS Portugal records, we found that delivery of ADS research reports
regularly exceeds the 30-day deadline specified in the US&FCS manual. ADS is a fee-based
service in which a prospective U.S. exporter requests information on the most promising
agent/distributor prospects. ADS research typically reports up to six qualified, reputable, and
interested prospects.

In FY 1996 and FY 1997 combined, the Post received 11 ADS requests. The average number of
days between the time post acknowledged receipt of an ADS request and the time a completed
ADS report was sent to the domestic office was 86 days and 63 days, respectively. One ADS
report took 284 days to complete and forward to the domestic office. In general, while a log was
maintained, there was no active monitoring of ADS progress. The SCO appeared to be unaware
of how untimely ADS reports were, although correspondence from him to his staff clearly shows
his commitment to providing a quality product to U.S. companies.

As noted above, US&FCS has adapted itself to Portugal’s secondary-market status by focusing
on the information needs of Portuguese distributors/importers interested in U.S. products; i.e., the
reverse of a traditional ADS, which focuses on the needs of U.S. exporters. While this strategy
appears to be generating results, the service should still be an integral part of services provided to
U.S. companies and should be provided in a timely manner.

C.     Personnel Management Needs Attention

Staff morale at US&FCS Portugal can be characterized as fair. The staff appear to enjoy their
work, receive adequate management direction, and interact positively with the SCO. The SCO

                                                  6
U.S. Department of Commerce                                                  Audit Report BTD-10594
Office of Inspector General                                                              March 1999

has developed a work plan for the office that presents program objectives, targets client needs,
and addresses each employee’s role. Interviews with the FSN staff, however, indicated a lack of
career advancement potential, which has lowered staff morale. Because most of the staff at
US&FCS Portugal have been employed there for more than 20 years, nearly every employee has
reached the maximum grade and step level. In addition, US&FCS Portugal’s low ranking on the
US&FCS Overseas Resource Allocation Matrix reduces its ability to employ higher graded
positions. The absence of career growth or promotion potential for any employee (until a senior
FSN retires) will continue to have a negative impact on motivation.

RECOMMENDATIONS

We recommend that the Assistant Secretary and Director General:

1.     Reassess the general mission and activity of the Porto office in order to determine how it
       could more effectively support the objectives of US&FCS. To this end, determine          (a)
       why an active relationship with the Porto branch of the Chamber of Commerce has not
       been established; and (b) whether US&FCS Porto is adequately focused and integrated
       into the overall objectives of US&FCS Portugal.

2.     Ensure that US&FCS management works with the senior commercial officer to adopt a
       more formal system for monitoring ADS timeliness. Staff should also be held accountable
       for timeliness problems, as well as recognized and rewarded for meeting the established
       ADS deadline.

3.     Explore available performance incentives and recognition techniques to counteract low
       morale among US&FCS Portugal staff.

US&FCS’s Response to Draft Report and OIG Analysis

In its reply to our draft report, US&FCS agreed to, or has taken action consistent with, our
recommendations. While we are encouraged by US&FCS’s commitment to ensuring that the
Porto office is involved in the SCE and Best Prospect sectors, we recommend that the Porto
office’s relationship with the local AmCham be reassessed. A summary of US&FCS’s position on
each recommendation is presented with OIG comments on the US&FCS response.

Recommendation #1:

Reassess the general mission and activity of the Porto office in order to determine how it could
more effectively support the objectives of US&FCS. To this end, determine (a) why an active
relationship with the Porto branch of the Chamber of Commerce has not been established; and
(b) whether US&FCS Porto is adequately focused and integrated into the overall objectives of
US&FCS Portugal.

                                                7
U.S. Department of Commerce                                                    Audit Report BTD-10594
Office of Inspector General                                                                March 1999

US&FCS Response: The SCO was not present at the OIG’s meeting with the Director of the
Porto Committee of the AmCham and requests a debriefing to discuss the outcome of the meeting
before addressing the reported inadequate relationship with the Porto AmCham and to clarify the
nature of actions to be taken by the post. US&FCS pointed out that the offices meet regularly;
most of the reference publications used at the Porto AmCham were donated by US&FCS; the
offices are located in the same building; and US&FCS Porto assists the part-time AmCham
employee in answering members’ questions. If improvement in the relationship is necessary, it lies
with the SCO and not necessarily with the US&FCS Porto office.

Subsequent to the audit, the SCO has met several times with the Porto AmCham to explore
further areas of cooperation and now believes that the relationship is excellent. The SCO points
out that more than 80 percent of the AmCham members are Portuguese manufacturers who want
to export to the United States. The post’s interest in these members is necessarily very limited,
sometimes leading to unfulfilled expectations. Also, many Porto businesses still feel slighted by
the 1991 closure of the US Consulate in Porto.

With respect to the focus of the Porto office and the extent of integration into the overall
objectives of US&FCS Portugal, the sole Porto Commercial Assistant is responsible countrywide
for one of the SCE sectors and the two Portugal Best Prospect sectors. The Porto FSN handles
all inquiries from businesses in the north that are not part of another FSN’s portfolio. The wide
focus leads to success stories from a range of industry sectors. As a result of comments by the IG
team during its debrief, the SCO has increased the number of visits by the Porto FSN to Lisbon
from once a year to once a quarter. The SCO also encourages Lisbon-based FSNs to travel to
Porto when sector market research warrants such a visit.

OIG Comments: Our conclusion with respect to the relationship with the Porto AmCham was
based on our interview with the Porto AmCham Director; however, as the report states on page
2, we discussed these and other findings with the SCO and US&FCS Regional Director for
Europe on December 12, 1997, at the end of our visit. While the offices might have regularly met
prior to our audit, the Porto Director’s comments concerned a lack of substantive joint projects to
promote US products and services. To the extent that the SCO has met with the Director
subsequent to our visit and initiated such projects (which were not detailed in the response), the
SCO is meeting the intent of the recommendation. Similarly, the SCO’s actions to increase the
number of visits by the Porto FSN to Lisbon, as well as Porto’s involvement in the SCE and Best
Prospect sectors, are responsive to the recommendation. We would be pleased to discuss this
further with the SCO if so desired.

However, the fact that so many of the AmCham members are apparently not interested in
distributing US products and services, as cited in the response, might indicate that the benefits of
Porto’s relationship with the AmCham should be reassessed. We did not recommend that
US&FCS strengthen the relationship, merely that it determine why it is not more active. More



                                                  8
U.S. Department of Commerce                                                 Audit Report BTD-10594
Office of Inspector General                                                             March 1999

needs to be done to ensure that Porto focuses on promoting US exports to the region in the face
of such reluctance. We are therefore reiterating our recommendation without change.

Recommendation #2:

Ensure that US&FCS management works with the senior commercial officer to adopt a more
formal system for monitoring ADS timeliness. Staff should also be held accountable for
timeliness problems, as well as recognized and rewarded for meeting the established ADS
deadline.

US&FCS Response: Following the IG audit, a FSN was formally assigned to monitor ADS
timeliness and alert the SCO to potential delays. Since the audit, all ADS requests have been
received and processed within ADS guidelines.

OIG Comments: We concur with US&FCS’s response to our recommendation. No further
action is needed.


Recommendation #3:

Explore available performance incentives and recognition techniques to counteract low morale
among US&FCS Portugal staff.

US&FCS Response: Staff is concerned with lack of advancement potential and income tax
liability. The latter is an issue over which the USG has no control. The SCO has improved office
environment and work conditions. He has awarded cash awards to FSNs for superior
performance. The SCO notes that more flexibility in the grade structure and recognizing spot
performance with money would be of great assistance in motivating FSNs worldwide.

OIG Comments: We concur with US&FCS’s response to our recommendation. We recognize
the limitations on each SCO in this area.




                                                9
U.S. Department of Commerce                                                  Audit Report BTD-10594
Office of Inspector General                                                              March 1999

II.    INTERNAL CONTROL ENVIRONMENT

US&FCS should improve internal control systems to better meet the requirements of the Federal
Managers’ Financial Integrity Act of 1982 (FMFIA) (31 U.S.C. §3512(b)). The internal control
weaknesses, which we view as not material, include a lack of (1) asset management control over
vehicles and inventory and (2) controls over cash collections. Management has segregated key
duties and responsibilities among State Department and USFCS personnel in authorizing,
processing, recording, and reviewing transactions among key individuals, except during cash
collections. Documentation of trust fund costs should be improved, even though there was little
activity. There appears to be a significant unfunded severance liability for US&FCS Portugal,
although a more detailed analysis of the severance pay agreement may yield a smaller amount.
US&FCS Portugal is actively engaged in the International Cooperative Administrative Support
Service system (ICASS) to ensure that the expenses charged are accurate and the services meet
quality standards.

A.     Asset Management Needs to Be Strengthened

According to 4 FAM 031.7, Control of Property, agencies are to maintain inventory controls and
accountability systems for property. US&FCS Portugal has not properly implemented asset
management procedures in two areas, vehicle use and inventory controls, to ensure that assets are
safeguarded against waste, loss, unauthorized use, and misappropriation.

Vehicle use

The US&FCS Operations Manual requires that posts with vehicles keep use records that track
official and personal use. US&FCS staff must reimburse the government for all personal use of
the vehicle. The vehicle lease inventory for the Portugal post showed two vehicles, a 1993 Opel
Omega and a 1985 Opel Record. But use records have not been maintained for either vehicle,
and the keys for the Opel Record were missing. As a result, the system and controls are
inadequate, with the potential for a high risk of misuse. If the Opal Record is no longer needed,
the vehicle should be turned over to State Department’s general services officer for disposal.

Inventory controls

During a review of the post’s inventory management system, we identified a significant lack of
control over US&FCS furniture and equipment assets. Embassy administrative staff maintain
control over the inventory in the Non-Expendable Property Application (NEPA) System, which is
an ICASS service charged to each agency. The State Department has an inventory process
whereby all purchases are received by the administrative section, bar-coded, and processed into
the NEPA system. In addition to the NEPA system, each US&FCS post works with the
Washington-based US&FCS Office of Information Systems (OIS) to maintain a computer
equipment inventory.

                                                10
U.S. Department of Commerce                                                     Audit Report BTD-10594
Office of Inspector General                                                                 March 1999

We reviewed the NEPA and computer inventory reports and found inadequate recording of the
inventory. Over $5,000 in assets were unaccounted for in the official inventory. In Porto alone,
multiple items were identified that were not listed on the official inventory: a cellular telephone, a
computer, printers, a copying machine, an answering machine, and a fax machine. When State’s
general services officer was questioned, she could not explain how Porto could receive equipment
without it being logged into the State Department system.

B.     Financial Management Controls Need Improvement

Three offices of the State Department (the Budget and Financial Office (B&F), General Services
Office (GSO), and Personnel Office) maintain a number of internal accounting and administrative
controls. We reviewed the State Department controls applicable to US&FCS Portugal. The B&F
and GSO have controls over the procurement and payment cycle to ensure that appropriate
reviews and authorization signatures are on purchase orders and other documents. However, we
noted weaknesses in the US&FCS financial controls that should be addressed.

Controls over Cash Collections Should be Strengthened

We reviewed post and B&F cash receipts procedures and controls. While the amount of cash
collected at post is relatively small, amounting to just $3,873 in FY 1997, the procedures and
controls should be strengthened to safeguard against the potential misuse of receipts and ensure
accurate reporting. We found that the post does not (1) maintain a contemporaneous log as the
cash is received; (2) use sequentially numbered receipts; (3) fix accountability for each segment of
the event cycle (e.g., receipt of cash and preparation of receipts) with one person; (4) periodically
reconcile post deposit records with accounting records maintained by the B&F Office or Office of
Trade Event Management collection reports; and (5) maintain continuous control over cash
receipts. Due to the small amount of collections, we assessed the risk for potential misuse or
misreporting of cash receipts as moderate.

Supervision over Porto Petty Cash Should Be Strengthened

The FSN in Porto maintains a petty cash fund of $1,000 in local currency. The SCO in Lisbon
has direct control over the petty cash and visits Porto twice a month, at which time cash counts
are conducted. However, when interviewing the embassy administrative officer, we learned that
the State Department does not supervise or review the US&FCS petty cash fund. The State
Department has authority over administrative matters at post and has the resources and training in
financial functions. Normal procedures for posts with a petty cash fund call for the State
Department to authorize allotments and provide supervisory oversight and guidance to the
US&FCS employee and supervisor.

We also found that the librarian/secretary and cleaning contractor (both part-time, purchase order
contractors) in Porto are paid from the petty cash fund. In a 1994 internal US&FCS management

                                                 11
U.S. Department of Commerce                                                           Audit Report BTD-10594
Office of Inspector General                                                                       March 1999

report, the post was instructed to refrain from paying such expenses from the fund and to convert
the employees to personal service contracts (PSCs). At the time of our audit, post officials had
not implemented the instruction; instead, the purchase orders were cut on a monthly basis.
US&FCS Portugal has processed over 84 purchase orders for one employee since 1990.

C.      Post Needs to Document Trust Fund Balances

US&FCS trade events are intended to be self-supporting and collections for these events are
accumulated in a trust fund. In order to assess whether the post is recovering the full costs of
trade events and activity, the post must maintain income and expense accounting records. While
the collections at post in FY 1997 were relatively small, almost $3,900, we were unable to
determine the expenditures and whether the post met US&FCS requirements for trust fund
activity. For the Informatica trade fair, the headquarter’s Office of Trade Event Management
reported expenses of $21,935. For the same event, the State Department B&F Regional
Administrative Management Center reported expenses of $19,106.9

                                    FY 1997 Trust Fund Gains and Losses


                          Event               Collections      Expenditures     Gain (Loss)

                  Informatica Trade Fair        $20,541           $21,935         ($1,394)

                  Gold Key                      $2,245           no records      unknown

                  Business Facilitation         $1,628           no records      unknown


We reviewed the trade event and trust fund financial records to verify that revenues were
sufficient to cover the related expenses. As shown in the table above, the post Gold Key and
business facilitation programs had revenues but no costs recorded. When advised of this, the
SCO indicated that the costs are so low and similar to operating and administrative related costs,
that the latter account will typically fund the expenses.

US&FCS regulations also require that the post maintain records to demonstrate that more than 50
percent of the guests entertained at US&FCS events represent local organizations. The records
attached to documents maintained by the State Department B&F Office do not always
demonstrate that the guests meet this criteria.




        9
           Informatica Trade Fair collections were made through the Washington, DC-based Office of Trade Event
Management and were not considered US&FCS Portugal post collections for the purpose of our analysis. Instead,
collections for this event were considered as total collections for US&FCS Portugal events.

                                                     12
U.S. Department of Commerce                                                    Audit Report BTD-10594
Office of Inspector General                                                                March 1999

D.     US&FCS Portugal Has an Unfunded Personnel Liability

Federal laws and regulations (FMFIA, the Chief Financial Officers Act, and GAO regulations)
require that US&FCS Washington account for its FSN severance cost liability. The FSN
personnel benefits, including severance pay, are in accordance with prevailing practices in
Portugal. The embassy personnel office provided us with a severance cost liability calculation of
over $517,000. The personnel staff told us that the calculations were based on retroactive service
prior to June 1992, the date of the severance pay plan, through December 1997. We were also
advised that if US&FCS employees were terminated, they would receive severance payments even
if they were eligible for an immediate retirement annuity.

We reviewed the severance pay plan. The plan does not expressly state that the creditable service
includes the period of employment prior to June 1992. The plan also does not address whether
employees receive severance benefits if eligible for an immediate retirement annuity. Under the
federal civilian retirement systems, federal workers do not receive severance pay if they can retire
on an immediate annuity. Since the FSNs have a lengthy employment history (the average length
of service is 22 years), with much of the service prior to June 1992, the amount of severance
liability could be significantly less than the amount calculated. The interpretation of the severance
plan could materially affect the amount of the unfunded severance pay liability. US&FCS should
obtain a legal review to interpret the laws and regulations as they apply to the plan and conduct a
detailed analysis to determine the precise amount of the liability.

E.     US&FCS Portugal Is Actively Engaged in ICASS

US&FCS Portugal is actively engaged in ICASS to ensure that expenditures are accounted for
properly in accordance with FMFIA. The SCO is the current chairman of the ICASS council, but
due to the relatively small size of the agencies operating in the embassy, there is no ICASS
working group. There is an ongoing review of the services provided and costs that the
commercial service is assessed. Currently, ICASS costs represent 29 percent of US&FCS
Portugal’s total operating costs. The SCO has paid particular attention to identify the types of
personnel that State includes in its allocation of the administrative costs, and to verify that such
staff are actually providing a service to the post.

RECOMMENDATIONS

We recommend that the Assistant Secretary and Director General of US&FCS:

1.     Require US&FCS to maintain vehicle use records that identify the user and account for all
       kilometers driven, and to ensure reimbursement to the government for any personal use.

2.     Require US&FCS to turn over the 1985 Opel Record to the State Department’s General
       Services Office for disposition if the vehicle is no longer needed.


                                                 13
U.S. Department of Commerce                                                   Audit Report BTD-10594
Office of Inspector General                                                               March 1999

3.     In concert with the State Department’s General Services Office, perform an inventory to
       ensure that all US&FCS assets are appropriately identified with bar code tags. For any
       items not included in the inventory records, obtain an explanation from the property
       custodian as to the location of the equipment or other asset.

4.     Direct US&FCS to improve internal controls over cash collections by:
       l      maintaining a contemporaneous log of cash received,
       l      using sequentially numbered receipts,
       l      fixing accountability for each segment of the cash collection and deposit cycle with
              one person,
       l      reconciling the official post receipt records with State B&F cash collection
              reports, and
       l      maintaining control of the cash until deposited with the B&F cashier and an official
              deposit record is received.

5.     Request that the State Department B&F Office within the U.S. embassy in Portugal
       provides the necessary guidance and supervision over the management of the petty cash
       allotment.

6.     Ensure that US&FCS refrains from making contractor payments from the petty cash
       allotment as instructed in the 1994 US&FCS management report on Portugal.

7.     Require that representation expense vouchers submitted to B&F have adequate
       documentation of the 50-percent local organization rule.

8.     Require US&FCS to maintain adequate accounting records for trust fund account
       expenditures.

9.     Direct US&FCS to obtain legal interpretation of the laws and regulations as necessary and
       review the severance pay agreement to assess the amount of unfunded severance liability
       for the post.

US&FCS’s Response to Draft Report and OIG Analysis

In its reply to our draft report, US&FCS agreed to, or has taken action consistent with, all of our
recommendations.

Recommendation #1:

Require US&FCS to maintain vehicle use records that identify the user and account for all
kilometers driven, and to ensure reimbursement to the government for any personal use.



                                                14
U.S. Department of Commerce                                                    Audit Report BTD-10594
Office of Inspector General                                                                March 1999

US&FCS Response: A vehicle use log was initiated immediately prior to the IG audit. The
section’s secretary maintains use records in the vehicle file. Similar logs are also now maintained
for fax and long distance phone usage.

OIG Comments: When we inquired into the use of the log during our audit (early December
1997), we found that a log for one vehicle had just been initiated, but it included only one entry
for use, and the user was not identified. No log existed for the use of the other vehicle.

We concur with US&FCS’s response to our recommendation. No further action is needed.

Recommendation #2:

Require US&FCS to turn over the 1985 Opel Record to the State Department’s General Services
Office for disposition if the vehicle is no longer needed.

US&FCS Response: The vehicle was disposed of by GSO on March 31, 1998. At the time of
the audit, US&FCS informed the auditors that the keys were with GSO since we had already
turned the vehicle over to them for disposal.

OIG Comments: The OIG auditor interviewed the SCO and his secretary on these issues in early
December 1997, and the auditor attempted to inspect the vehicle. The secretary told the auditor,
in the presence of the SCO, that she did not have the keys and did not know who did have the
keys. As a result, the auditor was unable to enter the vehicle to read the odometer or check for
vehicle records possibly stored in the vehicle.

We concur with US&FCS’s response to our recommendation. No further action is needed.

Recommendation #3:

In concert with the State Department’s General Services Office, perform an inventory to ensure
that all US&FCS assets are appropriately identified with bar code tags. For any items not
included in the inventory records, obtain an explanation from the property custodian as to the
location of the equipment or other asset.

US&FCS Response: Embassy’s GSO now maintains an up-to-date, bar-coded inventory of
office and residential property. The last complete physical inventory was in September 1998.
GSO now records all new purchases upon receipt.

OIG Comments: We concur with US&FCS’s response to our recommendation. No further
action is needed.




                                                 15
U.S. Department of Commerce                                                  Audit Report BTD-10594
Office of Inspector General                                                              March 1999

Recommendation #4:

Direct US&FCS to improve internal controls over cash collections by:
       l    maintaining a contemporaneous log of cash received,
       l    using sequentially numbered receipts,
       l    fixing accountability for each segment of the cash collection and deposit cycle
            with one person,
       l    reconciling the official post receipt records with State B&F cash collection
            reports, and
       l    maintaining control of the cash until deposited with the B&F cashier and an
            official deposit record is received.

US&FCS Response: US&FCS agrees with each recommendation in this area. The post
currently uses OF-58 receipts issued by the Embassy cashier, but will confer with other European
posts to determine the method they use in issuing receipts. The Lisbon office secretary is the sole
individual handling collections, deposits, and receipts. The post has requested approval to
purchase a small safe to store checks when the Embassy cashier is closed. OIO/Europe
management will authorize the post to proceed accordingly.

OIG Comments: We concur with US&FCS’s response to our recommendation, with one
exception. To minimize the risk, however already low, of loss of collection revenue, the post
should not assign the entire cash collection/deposit/receipt process to one person. To best
implement a sound system of internal controls, we recommended fixing responsibility for each
segment of the process with one person.

Recommendation #5:

Request that the State Department B&F Office within the U.S. embassy in Portugal provides the
necessary guidance and supervision over the management of the petty cash allotment.

US&FCS Response: The SCO and the post’s Financial Management Officer will set up a
periodic schedule of reviews and visits to provide oversight.

OIG Comments: We concur with US&FCS’s response to our recommendation.

Recommendation #6:

Ensure that US&FCS refrains from making contractor payments from the petty cash allotment as
instructed in the 1994 US&FCS management report on Portugal.

US&FCS Response: Upon the post’s request, OIO management authorized the conversion of
the librarian/secretary to PSC status. However, OIO management does not agree that the


                                                16
U.S. Department of Commerce                                                  Audit Report BTD-10594
Office of Inspector General                                                              March 1999

cleaning person should be so converted. The post will explore other options, such as hiring a firm
for periodic cleaning for the Porto office.

OIG Comments: We concur with US&FCS’s response to our recommendation.

Recommendation #7:

Require that representation expense vouchers submitted to B&F have adequate documentation of
the 50-percent local organization rule.

US&FCS Response: US&FCS agrees with the recommendation, but requests clarification of the
50-percent rule as it applies to a gathering of three. OIO management has asked the Office of
General Counsel for advice. Such scenarios frequently occur, such as lunches involving only the
Ambassador, the SCO, and a single business representative.

OIG Comments: We appreciate US&FCS’s concern that the rule may interfere with events that
are appropriate and necessary to the post’s mission. We advise US&FCS to seek a rapid response
from OGC, and to request that OGC consider the flexibility needed in the case cited.

Recommendation #8:

Require US&FCS to maintain adequate accounting records for trust fund account expenditures.

US&FCS Response: US&FCS agrees with the recommendation and will implement a system to
record trust fund deposits and receipts.

OIG Comments: We concur with US&FCS’s response to our recommendation.

Recommendation #9:

Direct US&FCS to obtain legal interpretation of the laws and regulations as necessary and
review the severance pay agreement to assess the amount of unfunded severance liability for the
post.

US&FCS Response: US&FCS will request ITA’s Office of Financial Management to investigate
the status of the unfunded liability and confer with OGC in making a definitive determination as to
the precise amount.

OIG Comments: We concur with US&FCS’s response to our recommendation.
U.S. Department of Commerce                        Audit Report BTD-10594
Office of Inspector General                                    March 1999



                              APPENDIX II

               US&FCS PORTUGAL ORGANIZATIONAL CHART



                                   US&FCS Lisbon
       US&FCS Porto
U.S. Department of Commerce                                               Audit Report BTD-10594
Office of Inspector General                                                           March 1999



                                      APPENDIX III

                                        ACRONYMS

ADS            Agent/Distributor Service
AmCham         American Chamber of Commerce
B&F            Budget and Finance Office, Department of State
EU             European Union
FAM            Foreign Affairs Manual
FMFIA          Federal Managers’ Financial Integrity Act of 1982
FSN            foreign service national
GAO            General Accounting Office
GSO            General Services Office, Department of State
ICASS          International Cooperative Administrative Support Service
ITA            International Trade Administration
NEPA           Non-Expendable Property Application System
OIG            Office of Inspector General
PSC            personal services contract
SCE            Showcase Europe
SCO            senior commercial officer
US&FCS         U.S. and Foreign Commercial Service
USG            United States Government
